                                     SOCIAL SECURITY
MEMORANDUM
Date:   September 3, 2003                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Summary of the Office of the Inspector General’s Reviews of the Social Security
        Administration’s Performance Data (A-02-03-13033)


        The attached final report presents the results of our audit. Our objectives were to
        summarize the results of previous reviews of, and identify common issues related to,
        the Social Security Administration’s performance data and indicators.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  SUMMARY OF THE OFFICE OF THE
  INSPECTOR GENERAL’S REVIEWS
     OF THE SOCIAL SECURITY
        ADMINISTRATION’S
       PERFORMANCE DATA


 September 2003      A-02-03-13033




  AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
Our objectives were to summarize the results of previous Office of the Inspector
General (OIG) reviews of, and identify common issues related to, the Social Security
Administration’s (SSA) performance data and indicators. This report summarizes the
major findings and recommendations contained in 34 OIG reports related to the
reliability of SSA’s performance data and indicators.

BACKGROUND
The Government Performance and Results Act, the President’s Management Agenda,
and Office of Management and Budget guidance have highlighted the importance
placed on performance measurement activities in the effective management of public
programs. Similarly, we have highlighted the importance of reliably measuring program
performance within our statement on SSA’s major management challenges.

The OIG has played a critical role in the oversight of SSA’s program performance. We
evaluated the processes and systems SSA used to measure its performance and
issued 34 reports assessing the reliability of the data used to measure 53 of SSA’s
performance indicators.

RESULTS OF REVIEW
Between FYs 1998 and 2002, we audited 53 of SSA’s performance indicators and found
37 of the indicators (70 percent) were supported by reliable data, and 5 indicators
(9 percent) were based on data that were unreliable. We found the data to be
unreliable because of their incompleteness or weaknesses in the controls used to
collect, analyze or report the data. We were unable to issue an opinion on 11 indicators
(21 percent) because of limitations on, or the unavailability of, data. The issues that led
to our conclusions are explained in greater detail in the following sections of this report.

We have offered many recommendations in our reviews to help improve SSA’s
performance measurement processes. The Agency has taken significant action to
implement many of our suggested changes. Over the last few years, SSA has
disclosed data limitations, changed performance indicators, and improved data
collection systems in response to our recommendations. However, SSA still needs to
implement some outstanding recommendations that will help improve its performance
measurement processes. SSA especially needs to address recommendations to
improve the data used to support 13 of the indicators we could not review or found to be
unreliable.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                         i
CONCLUSIONS AND RECOMMENDATIONS
SSA needs to continue its efforts toward documenting all performance measurement
processes, ensuring its performance data are complete, and implementing adequate
internal controls over its data systems and processes. Specifically, SSA should:

•   Implement all outstanding recommendations needed to produce reliable
    performance data and improve SSA’s performance measurement processes.

•   Ensure process documentation and internal controls over the collection, processing,
    and reporting of data are complete and adequate for any new indicators established
    in the future.

AGENCY COMMENTS
SSA partially agreed with Recommendation 1. According to its records, the Agency
considered 7 of the 20 recommendations to be open and the remaining
13 recommendations listed in our draft report to be closed. SSA provided an updated
status for all 20 recommendations as part of its comments.

The Agency maintained it is already conducting the activities in Recommendation 2 and
will continue to implement this process for any new indicators established in the future.
(See Appendix B for the full text of SSA’s comments.)

OIG RESPONSE
We appreciate SSA’s updates on the status of the outstanding recommendations listed
in our report and its efforts to resolve those that are still open. The Agency’s update will
allow us to close 7 of the 20 recommendations listed in our report. However, we
disagree with the Agency’s closing of six recommendations. Our reasons for
disagreeing are discussed in detail in the body of this report.

Concerning our Recommendation 2, our audit work in this area has documented
multiple instances in which SSA did not have adequate documentation of, and/or
internal controls over the collection, processing, and reporting of its performance
processes and data. We appreciate the Agency’s efforts to ensure such documentation
and controls are in place for new indicators established in the future.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                         ii
                                                          Table of Contents
                                                                                                                   Page

INTRODUCTION......................................................................................................... 1

RESULTS OF REVIEW .............................................................................................. 4

    Performance Data Reliability ................................................................................. 4

    Measurement Process Documentation .................................................................. 5

    Performance Measurement Process Completeness.............................................. 7

    Internal Controls in Performance Measurement Systems...................................... 8

CONCLUSIONS AND RECOMMENDATIONS......................................................... 10

APPENDICES

Appendix A – Office of the Inspector General Reports on the Reliability of the Social
             Security Administration’s Performance Measure Data (Fiscal Years 1998
             Through 2002)

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgments




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)
                                                                     Acronyms
 ALJ              Administrative Law Judge
 APP              Annual Performance Plan
 DI               Disability Insurance
 FY               Fiscal Year
 GPRA             Government Performance and Results Act
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 RJ               Reviewing Judge
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number
 VIP              Visitor Intake Process




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)
                                                                 Introduction
OBJECTIVE
Our objectives were to summarize the results of previous Office of the Inspector
General (OIG) reviews of, and identify common issues related to, the Social Security
Administration’s (SSA) performance data and indicators. This report summarizes the
major findings and recommendations contained in 34 OIG reports related to the
reliability of SSA’s performance data and indicators.

BACKGROUND

SSA uses performance indicators to measure the performance of its programs and its
ability to meet programmatic and strategic goals. The Agency’s performance
measurement activities include the implementation of the Government Performance and
Results Act (GPRA) of 1993.1 GPRA seeks to improve the management of Federal
programs, as well as their effectiveness and efficiency. GPRA is intended to shift the
focus of Federal decisionmaking, management, and accountability from activities and
processes to results and outcomes achieved by agency programs. GPRA established a
framework through which Federal agencies set goals, measure performance, and report
on the extent to which those goals were met. Agencies prepare 5-year strategic plans,
annual performance plans (APP), and annual performance reports. The APP provides
a direct link between strategic goals and agency performance. The APP identifies
(1) the annual performance goals an agency will use to gauge progress toward
accomplishing its strategic goals and (2) performance indicators for use in assessing
progress.

SSA submitted its first strategic plan, Keeping the Promise, in Fiscal Year (FY) 1997; its
second, Mastering the Challenge, in FY 2000; and its third in FY 2003. In February
1998, SSA issued its first APP, which defined performance indicators and goals for FY
1999, and it has released APPs every year since. SSA developed and reported on
performance indicators as early as FY 1991—before GPRA was passed—and began
reporting on its performance goals as part of its annual accountability report in FY 1995.

The President’s Management Agenda calls for the integration of performance review
and budget formulation. As part of this integration process, agencies are being asked to
identify high quality outcome indicators that will be used to accurately monitor the
programs’ performance. Further, Office of Management and Budget (OMB) guidance2
states that performance indicators should be measurable objectives against


1
    Public Law No. 103-62, § 4(b). 31 U.S.C. § 1115 (2002).
2
 OMB Circular A-11, Part 6, Preparation and Submission of Strategic Plans, Annual Performance Plans,
and Annual Program Performance Reports, 2002.


Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                 1
which actual achievement in program activity can be quantitatively compared. GPRA,
the President’s Management Agenda, and OMB guidance highlight the importance
placed on performance measurement activities in the effective management of public
programs. Similarly, we have highlighted the importance of reliably measuring program
performance within our description of SSA’s major management challenges.3

SCOPE AND METHODOLOGY
The OIG has played a key role in ensuring that SSA’s data systems for measuring
performance are reliable. We have used a four-point approach to review SSA’s
performance indicators: (1) assess SSA’s system capacity to produce performance
data; (2) determine whether reported performance data are reliable; (3) ensure SSA has
the appropriate indicators to report on its performance; and (4) ensure the performance
indicators fully capture the program segments they are purported to measure.

We have issued 34 reports through FY 2002 covering 53 of SSA’s performance
indicators to determine the reliability of the data and indicators SSA uses to measure its
performance. (An additional 8 reports covering 18 indicators have or will be issued in
FY 2003. We did not include the FY 2003 reports since SSA has not had adequate time
to implement the recommendations contained in those reports.) Each report’s findings
and recommendations focused on the unique data sources related to specific
performance indicators. While our prior reviews were a valuable part of SSA’s
performance measurement system and identified weaknesses in data sources and
indicators, our focus on individual indicators did not present an overall view of SSA’s
performance management.

For this audit, we reviewed and summarized the findings included in the 34 reports on
SSA's performance data and indicators we issued between FYs 1998 and 2002 to
identify key trends or patterns that continue to be significant issues for SSA. (See
Appendix A for a list of the 34 reports.) We confirmed which performance data and
indicators addressed by our past reports were still relevant to the Agency at the time of
this review. We excluded from our analysis performance data and indicators the
Agency no longer uses internally or externally. While we compared the performance
indicators discussed in this report to SSA’s FY 2004 APP, this comparison by itself was
not sufficient to demonstrate whether all of the indicators we discussed were still in use
by SSA internally.

While some of the indicators included in our review were no longer in the FY 2004 APP,
the Agency may still use them for internal measurements. The Agency uses additional
performance indicators beyond those in its APP in internal reporting systems to manage
its programs. For example, the Workload Trend Report contains indicators of SSA’s
critical workloads that are not in SSA’s FY 2004 APP. The reliability of internal
performance indicators and data used by management is just as critical as it is for those
measures reported externally.
3
 SSA-OIG, Inspector General Statement on the Social Security Administration’s Major Management
Challenges for Fiscal Year 2002 (A-02-03-13034), November 2002.


Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                               2
Additionally, while the Agency has revised its external performance indicators over time,
new indicators may still rely on the same data sets and systems used by the previous
external indicators. If this is the case, SSA would still need to address previously
identified weaknesses within the performance data and systems to ensure the revised
indicators are supported by reliable performance data.

We analyzed the recommendations made to SSA in these reports, determined whether
SSA agreed with them, and documented what SSA reported as the status of any
corrective actions taken or planned to address our recommendations. We did not
independently audit SSA’s assertions of actions taken. In addition, we determined
whether there were any significant issues raised in our prior reports that remained
unresolved and the potential effects posed by such issues.

The entity audited was the Office of Strategic Management within the Office of Chief
Strategic Officer. We conducted our audit at our New York office from September 2002
through February 2003. We performed our audit in accordance with generally accepted
government auditing standards.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                    3
                                           Results of Review
We have offered many recommendations in our reviews to help improve SSA’s
performance measurement processes. SSA has taken action to address weaknesses
identified through our work. Over the last few years, SSA has disclosed data limitations,
changed performance indicators, and improved data collection systems in response to
our recommendations. However, SSA still needs to implement some outstanding
recommendations that will help improve its performance measurement processes. SSA
especially needs to address recommendations to improve the data used to support
13 indicators we could not review or found to be unreliable.

PERFORMANCE DATA RELIABILITY

                     The success of SSA’s performance measurement and
37 of the            management activities depends on the quality of the data used to
53 Indicators        measure and report on program performance. We have reported
Were Supported       that SSA has exhibited a strong commitment to measuring its
by Reliable Data     performance and has systems in place to collect data and report on
                     all its performance indicators.

Between FYs 1998 and 2002, we audited 53 of SSA’s performance indicators and found
37 of the indicators (70 percent) were supported by reliable data, and 5 indicators
(9 percent) were based on data that were unreliable. We found the data to be
unreliable because of their incompleteness or weaknesses in the controls used to
collect, analyze or report the data. We were unable to issue an opinion on 11 indicators
(21 percent) because of limitations on, or the unavailability of, data. The issues that led
us to our conclusions are explained in greater detail in the following sections of this
report.

SSA has made progress toward ensuring the reliability of its performance data.
Specifically, it reports that corrective action has been taken to ensure the reliability of
the data used for 3 of the 16 indicators that we could not review or for which we found
the data to be unreliable. While we have not determined the reliability of the data after
these recommendations were implemented, the actions taken should aid SSA in
producing reliable data. However, the Agency still needs to take corrective actions to
address weaknesses in the data used to support the following 13 indicators.

•   Percent of original and replacement Social Security number (SSN) cards issued
    within 5 days of receiving all necessary documentation
•   Number of hearings pending
•   Hearing processing time (days)
•   Percent of hearing decisions made and notices sent within 120 days of filing
•   Percent of 800-number calls handled accurately: payment accuracy
•   Percent of 800-number calls handled accurately: service accuracy




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                        4
•     Percent of callers who successfully access the 800-number within 5 minutes of their
      call
•     Percent of callers who get through to the 800-number on their first attempt
•     800-number calls handled
•     Percent of public with an appointment waiting 10 minutes or less
•     Percent of public without an appointment waiting 30 minutes or less
•     Number of hearing cases processed per work year
•     Number of Supplemental Security Income (SSI) non-disability redeterminations
      completed

We could not determine the reliability of the data or found the data to be unreliable for
these 13 indicators because of weaknesses in the systems and processes used to
collect, analyze and/or report the performance measure information.

MEASUREMENT PROCESS DOCUMENTATION

                          Our reviews found SSA often lacked sufficient documentation of
Measurement               the processes used to collect, analyze, and report performance
Process Was               indicator data, and the complete documentation necessary to
Often Not                 recreate performance indicators was not available.
Documented
                      OMB guidance4 requires that documentation for transactions,
management controls, and other significant events be clear and readily available for
examination. A significant lack of documentation does not provide the necessary
information to manage, assess or change measurement processes, nor does it provide
the audit trail necessary to verify the performance measure. Agencies should establish
a clear methodology for verifying the underlying data and retain the appropriate
documentation to enable an audit of the methodology that supports the performance
measures.

Of the 53 indicators we reviewed, 32 lacked the data to permit recreating the measure
and/or did not adequately document the measurement process. While we could
determine the reliability of the supporting data through alternative testing for most of the
indicators, the lack of data prevented us from reaching a conclusion for 11 indicators.
We made 28 recommendations to more fully document SSA’s processes to measure its
performance. SSA has reported that it implemented 19 of the recommendations. In
Table 1, we list the nine recommendations SSA has not implemented.




4
    OMB Circular No. A-123, Management Accountability and Control, 1995.


Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                          5
                                        Table 1
                  Outstanding Recommendations Related to Documenting
                              SSA’s Performance Measures
                 Indicator                                      Recommendation
Percent of disability claims decided         Provide an adequate audit trail to document the
within 6 months after onset or within        processes involved in the generation and accumulation
60 days after the effective filing date,     of the performance measure.
whichever is later
• Percent of 800-number calls                Revise procedures to require maintaining detailed
    handled accurately: payment              support for the facts of all 800-number calls monitored
    accuracy                                 by Regional Office of Quality Assurance.5
• Percent of 800-number calls
    handled accurately: service
    accuracy
SSN requests processed                       Identify and document the processes surrounding the
                                             generation and accumulation of performance measure
                                             values and establish policies and procedures
                                             surrounding the retention of performance measure
                                             documentation.
Representative payee actions                 Identify and document the processes surrounding the
                                             generation and accumulation of performance measure
                                             values and establish policies and procedures
                                             surrounding the retention of performance measure
                                             documentation.
Percent of individuals issued Social         Identify and document the processes surrounding the
Security Statements as required by           generation and accumulation of performance measure
law                                          values and establish policies and procedures
                                             surrounding the retention of performance measure
                                             documentation.
•     Percent of initial SSI aged claims     Identify and document the processes surrounding the
      processed within 14 days of filing     generation and accumulation of performance measure
•     SSI aged claims processed              values and establish policies and procedures
                                             surrounding the retention of performance measure
                                             documentation.
•  Percent of Old-Age and Survivors          Identify and document the processes surrounding the
   Insurance claims processed by             generation and accumulation of performance measure
   the time the first regular payment        values and establish policies and procedures
   is due, or within 14 days from            surrounding the retention of performance measure
   effective filing date, if later           documentation.
• Old-Age and Survivors Insurance
   claims processed
Number of SSI non-disability                 •   Formally document the processes used to collect,
redeterminations completed                       analyze, and report the redetermination workload
                                                 performance measure.
                                             •   Maintain an audit trail of the data from which the
                                                 redetermination workload data are produced.


5
    SSA disagreed with this recommendation and closed it without further action on November 5, 2001.


Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                     6
PERFORMANCE MEASUREMENT PROCESS COMPLETENESS

Key Components          OMB guidance states that performance goals and indicators
Were Omitted            should be centered on a program’s core purpose and represent
When Measuring          key program characteristics and attributes.6 While the overall
                        reliability of the indicators was not adversely affected, we
24 Indicators
                        reported that SSA omitted certain key components (for example,
                        a population, process, or time period) from its calculations for
some performance indicators and, as a result, did not fully measure performance in
these instances. Specifically, we found key components omitted in the measurement
for 21 indicators. In Table 2, we list four recommendation related to the completeness
of the performance measures that SSA has not implemented.


                                         Table 2
                Outstanding Recommendations Related to the Completeness
                                of Performance Measures

                 Indicator                                       Recommendation
Percent of Disability Insurance (DI)         Either include international DI claims in the measure or
claims decided within 6 months after         fully disclose in the SSA Annual Performance and
onset or within 60 days after the            Accountability Report the number of international DI
effective filing date, whichever is later    claims excluded.
Percent of major statistical products        SSA should expand the performance measure to include
that are timely                              additional types of reports and include publications
                                             produced by divisions other than the Office of Research,
                                             Evaluation, and Statistics.7
•  Percent of employers rating               When calculating the percent of respondents providing a
   SSA’s overall service as                  rating of “good,” “very good,” or “excellent,” the
   “excellent,” “very good,” or “good”       denominator should include all respondents, regardless
• Percent of employers rating                of their ratings.7
   SSA’s overall service as
   “excellent”
Hearings cases processed per work            SSA should update the travel formula to ensure it better
year                                         reflects a measure of the current travel of employees and
                                             includes all employees who travel.




6
    OMB Circular A-11, Part 6, Preparation and Submission of Strategic Plans, Annual Performance Plans,
    and Annual Program Performance Reports, 2002.
7
    SSA disagreed with this recommendation and closed it without further action on June 6, 2002.



Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                   7
INTERNAL CONTROLS IN PERFORMANCE MEASUREMENT SYSTEMS

Internal Controls       Our reviews found inadequate controls in the systems used to
                        collect, analyze or report on some indicators. While these
for Systems
                        inadequacies did not always result in a determination that the
Supporting
                        affected data were unreliable, we concluded that the reliability
20 Indicators Were
                        could be negatively impacted in the future. Specifically, we
Weak
                        reported that systems supporting 20 of the 53 indicators were
                        found to have inadequate controls over the collection, analysis
and/or reporting of data. In Table 3, we list the seven recommendations related to
internal controls SSA has not implemented.


                                            Table 3
                           Outstanding Recommendations Related to
                                       Internal Controls
                 Indicator                                      Recommendation
Percent of original and replacement          Revise the Modernized Enumeration System interview
SSN cards issued within 5 days of            and batch mode process to accurately capture the time
receiving all necessary                      of certification.8
documentation
• Number of hearings pending                 •   Perform a complete review of the process from the
• Hearing processing time (days)                 initial taking of the Form 501 in the field offices until
• Percent of hearing decisions                   input into the Hearing Office Tracking System to
   made and notices sent within                  ensure that data within the System are completely
   120 days of filing                            and accurately captured in a timely manner.
                                             • Ensure that data are automatically transferred from
                                                 the Modernized Claims System and the
                                                 Supplemental Security Record to the Hearing Office
                                                 Tracking System to eliminate the need for the
                                                 manual input of hearing request dates.
                                             • Develop and present to all staff responsible for
                                                Hearing Office Tracking System data management a
                                                standardized training course to ensure consistent
                                                and accurate entry of data.
Percent of DI claims decided within          Establish controls in the Modernized Claims System,
6 months after onset or within               SSA Claims Control System, Manual Adjustment Credit
60 days after the effective filing date,     and Award Processing/Manual Adjustment Credit and
whichever is later                           Award Data Entry and Management Information Initial
                                             Claims Records systems over date fields to limit data
                                             entry errors.




8
    SSA disagreed with this recommendation and closed it without further action on May 31, 2000.


Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                     8
                           Outstanding Recommendations Related to
                                       Internal Controls
                 Indicator                                       Recommendation
•     Percent of callers who                 Ensure that controls exist to prevent unauthorized
      successfully access the                access to the 800-number performance measure data
      800-number within 5 minutes of         files.
      their first call
•     Percent of callers who get
      through to the 800-number on
      their first attempt
•     800-number calls handled
•     Percent of public with an              Require that the customer’s SSN and name be included
      appointment waiting 10 minutes         with the data submissions and records to provide an
      or less                                opportunity to test data reliability and follow-up on
•     Percent of public without an           questionable data.9
      appointment waiting 30 minutes
      or less




9
    SSA disagreed with this recommendation and closed it without further action on October 19, 2001.


Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                     9
                                         Conclusions and
                                         Recommendations
The data for most of the 53 indicators reviewed were reliable, and SSA reports it has
taken actions to address many of the weaknesses identified during our previous audits.
Over the last few years, SSA has disclosed data limitations, changed performance
indicators, and improved data collection systems in response to our recommendations.
However, SSA still needs to implement some outstanding recommendations to improve
the Agency’s performance measurement processes. SSA especially needs to address
recommendations to improve the data used to support 13 indicators we could not review
or for which we found the data to be unreliable.

SSA needs to continue its efforts toward documenting all performance measurement
processes, ensuring its performance data are complete, and implementing adequate
internal controls over its data systems and processes. Specifically, SSA should:

1. Implement all outstanding recommendations needed to produce reliable
   performance data and improve SSA’s performance measurement processes.

2. Ensure process documentation and internal controls over the collection, processing,
   and reporting of data are complete and adequate for any new indicators established
   in the future.

AGENCY COMMENTS

SSA partially agreed with Recommendation 1. According to its records, the Agency
considered 7 of the 20 recommendations to be open and the remaining
13 recommendations listed in our draft report to be closed. SSA provided an updated
status for all 20 recommendations as part of its comments.

The Agency maintained it is already conducting the activities in Recommendation 2 and
will continue to implement this process for any new indicators established in the future.
(See Appendix B for the full text of SSA’s comments.)

SSA stated it is committed to documenting relevant performance measurement
processes, ensuring its performance data are complete, and implementing adequate
internal controls over its data systems and processes. The Agency was pleased that
our report concluded the data for most of the 53 indicators reviewed were reliable.
Further, SSA noted that 10 of the 53 performance indicators addressed in our report
continue to be external GPRA measures. However, the Agency stated that internal
measures—which were once included in its performance plans—should not be the
subject of follow-up audits and reviews since these measures are used exclusively by
management.



Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                     10
OIG RESPONSE
We appreciate SSA’s comments on our report. We believe the Agency relies on both its
external (GPRA) and internal performance indicators to manage its programs and meet
its mission. As a result, SSA needs to document relevant performance measurement
processes, ensure its performance data are complete, and implement adequate internal
controls over its data systems and processes for all of its performance indicators to
ensure management’s decisions are made based on reliable information.

We appreciate SSA’s updates on the current status of outstanding recommendations
and its efforts to improve its performance measurement processes. These updates will
allow us to close 7 of the 20 open recommendations. We disagree with the Agency’s
closing of the five recommendations related to the documentation and retention of the
processes and data used to measure SSN card requests, representative payee actions,
issuance of Social Security Statements, and SSI aged and Old-Age and Survivors
Insurance claims processing. SSA’s responses to these recommendations were broad-
based policy statements and did not specifically state the steps taken to document and
retain the performance measure processes and data. We also disagree with the
Agency’s closing of the recommendation to require that the customer’s SSN and name
be included with the data submissions used in its field office waiting time studies. We
believe this recommendation should remain open until the Agency has implemented the
Visitor Intake Process process that will provide information allowing tracking and
verification of individual customer and office data.

Concerning Recommendation 2, our audit work in this area has documented multiple
instances in which SSA did not have adequate documentation of, and/or internal
controls over the collection, processing, and reporting of its performance processes and
data. We appreciate the Agency’s efforts to ensure such documentation and controls
are in place for new indicators established in the future.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                    11
                                                      Appendices




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)
                                                                          Appendix A
Office of the Inspector General Reports on the Reliability of the Social
Security Administration’s Performance Measure Data (Fiscal Years
1998 Through 2002)

          Report Title and Common Identification Number                    Date Issued
 Performance Measure Review: Timely Issuance of Social Security           April 1998
 Number Cards (A-02-97-93003)
 Performance Measure Review: Evaluation of the 13th Annual Social         January 1999
 Security Customer Satisfaction Survey Data (A-02-97-01004)
 Performance Measure Review: Periodic Full Medical Continuing             September 1999
 Disability Review Data Collection (A-01-98-94003)
 Performance Measure Review: Reliability of the Data Used to Measure      December 1999
 Dollar Accuracy of Old-Age and Survivors Insurance Payment Outlays
 (A-02-98-01001)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2000
 Welfare Reform Childhood Disability Reviews (A-01-99-91003)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2000
 Social Security Number Request Processing (A-02-99-01009)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2000
 Representative Payee Actions (A-02-99-01010)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2000
 Personal Earnings and Benefit Estimate Statement Processing
 (A-02-99-01011)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2000
 the Timeliness of Supplemental Security Income Aged Claims
 Processing (A-02-99-11005)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2000
 the Posting of Earnings Items (A-02-99-01008)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2000
 the Timeliness of Old-Age and Survivors Insurance Claims Processing
 (A-02-99-11006)
 Performance Measure Review: Reliability of the Data Used to Measure      June 2000
 Continuing Disability Reviews (A-01-99-91002)
 Performance Measure Review: Reliability of the Data Used to Measure      July 2000
 the Social Security Administration’s Debt Collection (A-15-99-51006)
 Performance Measure Review: Reliability of the Data Used to Measure      September 2000
 Social Security Administration Employee Satisfaction with the Level of
 Security at Their Facility (A-13-00-10025)
 Performance Measure Review: Reliability of the Data Used to Measure      December 2000
 the Timeliness of Processing Supplemental Security Income Disability
 Claims (A-02-99-11002)
 Management Advisory Report: Performance Measure for the Percent of       February 2001
 the Continuing Disability Review Multi-Year Plan Completed
 (A-01-00-10011)
 Performance Measure Review: Reliability of the Data Used to Measure      May 2001
 the Hearing Process (A-02-98-91003)

Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                        A-1
          Report Title and Common Identification Number                    Date Issued
 Performance Measure Review: Reliability of the Data Used to Measure      May 2001
 the Accuracy of Earnings Posted (A-03-00-10004)
 Performance Measure Review: Reliability of the Data Used to Measure      June 2001
 Disability Determination Services Decisional Accuracy (A-07-99-21007)
 Performance Measure Review: Reliability of the Data Used to Measure      June 2001
 the Percentage of Social Security Numbers Issued Accurately
 (A-08-99-41003)
 Management Advisory Report: Performance Measure Survey of the            August 2001
 Percent of 800-Number Calls Handled Accurately (A-08-01-11024)
 Performance Measure Review: Reliability of the Data Used to Report       September 2001
 800-Number Performance (A-02-00-10019)
 Performance Measure Review: Reliability of the Data Used to Measure      September 2001
 Field Office Access (A-04-99-03008)
 Performance Measure Review: Reliability of the Data Used to Measure      November 2001
 Disability Claims Processing (A-02-00-10017)
 Performance Measure Review: Reliability of the Data Used to Measure      October 2001
 the Timely Processing of Disability Insurance Claims (A-02-99-11001)
 Performance Measure Review: Reliability of the Data Used to Measure      February 2002
 Public Knowledge of the Social Security Administration (A-02-01-11015)
 Performance Measure Review: The Social Security Administration’s         March 2002
 Transition Planning (A-02-01-11014)
 Performance Measure Review: Reliability of the Data Used to Measure      March 2002
 the Quality of the Social Security Administration’s Research
 (A-02-01-11011)
 Performance Measure Review: Reliability of the Data Used to Measure      April 2002
 Employer Satisfaction (A-02-01-11012)
 Performance Measure Review: Reliability of the Data Used to Measure      April 2002
 the Office of Hearings and Appeals Decisional Accuracy
 (A-12-00-10057)
 Performance Measure Review: Increase in the Number of Disabled           May 2002
 Beneficiaries Who Are Working (A-01-01-11022)
 Performance Measure Review: Reliability of the Data Used to Measure      July 2002
 Electronic Service Delivery (A-14-01-11032)
 Performance Measure Review: Assessing the Methodology Used to            August 2002
 Determine the Number of Hearings Cases Processed per Work Year
 (A-06-01-11037)
 Performance Measure Review: Reliability of the Data Used to Measure      August 2002
 Supplemental Security Income Non-Disability Redeterminations
 Completed (A-02-99-11003)




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                        A-2
                                                                Appendix B
Agency Comments




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)
                                  SOCIAL SECURITY


MEMORANDUM                                                                       32233-24-951


Date:   July 30, 2003                                                        Refer To: S1J-3

To:     James G. Huse, Jr.
        Inspector General

From:   Larry W. Dye /s/
        Chief of Staff

Subject: Office of the Inspector General (OIG) Draft Report "Summary of the OIG's Reviews of the
        Social Security Administration's (SSA) Performance Data" (A-02-03-13033)—INFORMATION

        We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
        content and recommendations are attached.

        Staff questions may be referred to Laura Bell on extension 52636.

        Attachment:
        SSA Response




        Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                 B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “SUMMARY OF THE OIG'S REVIEWS OF THE SOCIAL SECURITY
ADMINISTRATION'S (SSA) PERFORMANCE DATA" (A-02-03-13033)


Thank you for the opportunity to review and comment on the report content and
recommendations. SSA is committed in our efforts toward documenting relevant
performance measurement processes, ensuring our performance data are complete, and
implementing adequate internal controls over our data systems and processes. We
welcome external input, suggestions and the contributions the Inspector General has
made, and continues to make, in assisting us in developing a comprehensive performance
measurement process. We are pleased that the report concluded that the data for most of
the 53 indicators reviewed were reliable, and that it notes that we have completed or are
in the process of taking actions to address many of the weaknesses identified during
previous audits.

This report summarizes performance measure audits that date as far back as 1998. While
the report notes that the measures were all at one time part of an Agency Annual
Performance Plan as of Fiscal Year (FY) 2003 only 10 continue to be external
Government Performance and Results Act measures. Due to the numerous changes that
occur with our performance plans from year to year, we do not believe that following up
on prior recommendations that are no longer relevant is an efficient use of resources.
Furthermore, we do not believe that internal measures, that may have once been included
in the performance plans, should be the subject of follow-up audits and reviews, as they
are used exclusively by management, and we need to have the flexibility to use and
change them at will to meet our program mission. In addition, we have already provided
information on the recommendations either in our response to the original audit or
through the quarterly updating and tracking of open recommendations. Finally, we
would like to have a more collaborative role in the planning of any future audits of this
nature to ensure Agency resources are expended on timely, relevant performance
management issues.

Our responses to the specific recommendations are provided below and the charts provide
the status of the specific recommendations contained in the draft report.

Recommendation 1

Implement all outstanding recommendations needed to produce reliable performance data
and improve SSA’s performance measurement processes.

SSA Response

We partially agree. According to our records, there are only 7 outstanding
recommendations as opposed to 20 that are listed in the draft report. Those 7
recommendations are listed below along with each recommendation's current status and
implementation plan. The attached chart lists the other 13 recommendations that we
consider closed and provides the status of the recommendation that is contained in our
Recommendation Tracking Status System.

Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                    B-2
                     Outstanding Recommendations Related to Documenting
                                 SSA’s Performance Measures

      Indicator              Recommendation                                   Status
Percent of          Provide an adequate          Recommendation Tracking Status (RTS) March 2003
disability claims   audit trail to document      – The Office of Systems is addressing this issue as it
decided within      the processes involved in    transitions the Management Information Initial
6 months after      the generation and           Claims Record (MIICR) functionality to the Title II
onset or within     accumulation of the          Workload Management Information System (WMI).
60 days after       performance measure.         A General Project Scope Agreement was agreed
the effective                                    upon. The detailed functional requirements for the
filing date,                                     first release have been completed and software
whichever is                                     changes for release 1 are currently underway. The
later*                                           planned implementation date for the first release is
                                                 June 30, 2003. However, processing times will not
                                                 be addressed until Release 3 of this effort, and the
                                                 final target date has yet to be determined.
Number of SSI       Formally document the        RTS March 2003 – The Post-Eligibility Operational
non-disability      processes used to collect,   Data Store (PEODS) system for redeterminations is a
redetermination     analyze, and report the      new modernized system that will address many of
s completed         redetermination              OIG's concerns. It was provided to all field offices in
                    workload performance         June 2002 to control their redetermination workload.
                    measure.                     The PEODS users worked to identify, document and
                                                 validate requirements for redetermination data, all
                                                 calculations, report content and format. The Central
                                                 Office Redetermination Control (CORC) system was
                                                 terminated as of January 2003 since a review of the
                                                 performance measure information was verified and
                                                 agreed upon.
                    Maintain an audit trail of   RTS March 2003 – As part of the nonfunctional
                    the data from which the      requirements for the SSI Non-Disability
                    redetermination              Redeterminations workloads, the PEODS has the
                    workload data are            following data retention requirements:
                    produced.                    --There will be an ODS in the production
                                                 environment that will contain pending data and one
                                                 month of completion, clearance and deletion data.
                                                 The data in this ODS is being limited for
                                                 performance reasons. A copy of this data will also
                                                 reside on the Management Information Software
                                                 Facility (MISF) ODS.
                                                 --The MISF ODS will also contain all data for the
                                                 last 3 years.
                                                 --The Data Warehouse will house the current fiscal
                                                 year and 2 years prior. The weekly summaries will
                                                 be retained for a rolling 26 weeks. Ad hoc queries
                                                 will be available in the data warehouse.


    Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                        B-3
                  Outstanding Recommendations Related to the Completeness
                                 of Performance Measures

   Indicator          Recommendation                                  Status
Hearings cases    SSA should update the      RTS March 2003 -- The Office of Hearings and
processed per     travel formula to ensure   Appeals' evaluation of the travel formula and
work year         it better reflects a       necessary changes are expected to be completed by
                  measure of the current     the end of fiscal year 2003.
                  travel of employees and
                  includes all employees
                  who travel.
                             Outstanding Recommendations Related to
                                        Internal Controls

  Indicator           Recommendation                                    Status
• Number of       Perform a complete           RTS March 2003 – On November 5, 2002, the Office
   hearings       review of the process        of Disability and Income Security Programs (ODISP)
   pending        from the initial taking of   issued a memorandum to the Office of Operations
• Hearing         the Form 501 in the field    requesting volunteers to form a workgroup to address
   processing     offices until input into     the issues outlined in this OIG audit. The workgroup
   time (days)    the Hearing Office           has been formed to address these issues and is
• Percent of      Tracking System to           comprised of representatives from the Office of
   hearing        ensure that data within      Hearings and Appeals' (OHA) Office of
   decisions      the system are               Management, Office of the Chief Administrative Law
   made and       completely and               Judge (OCALJ), Office of Policy, Planning and
   notices sent   accurately captured in a     Evaluation and Buffalo, New York Hearing Office.
   within         timely manner.               The workgroup held it first conference call on
   120 days of                                 January 24, 2003, wherein issues and strategies were
   filing                                      discussed. Members of the workgroup submitted
                                               suggestions and comments to the OCALJ
                                               representative for inclusion in a summary report.
                                               Upon completion of the summary report, a joint
                                               memorandum will be drafted to the Office of
                                               Operations and OHA. A draft of the memorandum is
                                               targeted for completion during the third quarter of FY
                                               2003.
                  Ensure that data are         DISP Status – July 2003 – The Accelerated
                  automatically transferred    Electronic Disability (AeDib) project includes a Case
                  from the Modernized          Processing and Management System (CPMS) that
                  Claims System and the        will interface with all of SSA's systems. Data will be
                  Supplemental Security        propagated from those other SSA systems,
                  Record to the Hearing        eliminating redundant keying of data.
                  Office Tracking System
                  to eliminate the need for
                  the manual input of
                  hearing request dates.



    Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                     B-4
             Develop and present to       DISP Status – July 2003 – Upon implementation of
             all staff responsible for    CPMS, the HOTS will only be used to control
             Hearing Office Tracking      Medicare cases. Training needs relative to the
             System data management       implementation of CPMS are being assessed as part
             a standardized training      of the implementation.
             course to ensure
             consistent and accurate
             entry of data.

Recommendation 2

Ensure process documentation and internal controls over the collection, processing, and
reporting of data are complete and adequate for any new indicators established in the
future.

SSA Response

We already document and establish internal controls over the collection, processing, and
reporting of data to ensure that our indicators are complete and adequate. We will
continue to implement this process for any new indicators that are established in the
future.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                    B-5
                         Closed Recommendations Related to Documenting SSA’s Performance Measures
              Indicator                           Recommendation                                        Status
• Percent of 800-number calls         Revise procedures to require maintaining   RTS September 2001 – Closed – SSA
   handled accurately: payment        detailed support for the facts of all 800- disagreed, but suggested OIG co-monitor 800-
   accuracy                           number calls monitored by Regional Office number calls when the Agency assesses the
• Percent of 800-number calls         of Quality Assurance.                      reliability of the data used to compute the
   handled accurately: service                                                   performance measure. We had previously
   accuracy*                                                                     considered documenting the details of
                                                                                 monitored calls, but determined it would not be
                                                                                 cost-effective to do so and might still produce
                                                                                 unreliable results.
SSN requests processed                Identify and document the processes        RTS January 2001 – Closed – We agreed in
                                      surrounding the generation and             concept the Office of Strategic Management
                                      accumulation of performance measure        (OSM) is responsible for coordinating the
                                      values and establish policies and          Agency’s GPRA activities. In addition, we
                                      procedures surrounding the retention of    continue to work to improve the development
                                      performance measure documentation.         and retention of the kind of documentation
                                                                                 needed for external audits of our performance
                                                                                 measures.
Representative payee actions*         Identify and document the processes        RTS January 2001 – Closed – We agreed in
                                      surrounding the generation and             concept the Office of Strategic Management
                                      accumulation of performance measure        (OSM) is responsible for coordinating the
                                      values and establish policies and          Agency’s GPRA activities. In addition, we
                                      procedures surrounding the retention of    continue to work to improve the development
                                      performance measure documentation.         and retention of the kind of documentation
                                                                                 needed for external audits of our performance
                                                                                 measures.
Percent of individuals issued Social  Identify and document the processes        RTS January 2001 – Closed – We agreed in
Security Statements as required by    surrounding the generation and             concept the Office of Strategic Management
law*                                  accumulation of performance measure        (OSM) is responsible for coordinating the
                                      values and establish policies and          Agency’s GPRA activities. In addition, we
                                      procedures surrounding the retention of    continue to work to improve the development
                                      performance measure documentation.         and retention of the kind of documentation


Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                                           B-6
                        Closed Recommendations Related to Documenting SSA’s Performance Measures
              Indicator                        Recommendation                                    Status
                                                                            needed for external audits of our performance
                                                                            measures.


•   Percent of initial SSI aged claims   Identify and document the processes       RTS January 2001 – Closed – We agreed in
    processed within 14 days of filing   surrounding the generation and            concept the Office of Strategic Management
•   SSI aged claims processed            accumulation of performance measure       (OSM) is responsible for coordinating the
                                         values and establish policies and         Agency’s GPRA activities. In addition, we
                                         procedures surrounding the retention of   continue to work to improve the development
                                         performance measure documentation.        and retention of the kind of documentation
                                                                                   needed for external audits of our performance
                                                                                   measures.
•   Percent of Old-Age and Survivors     Identify and document the processes       RTS January 2001 – Closed – We agreed in
    Insurance claims processed by the    surrounding the generation and            concept the Office of Strategic Management
    time the first regular payment is    accumulation of performance measure       (OSM) is responsible for coordinating the
    due, or within 14 days from          values and establish policies and         Agency’s GPRA activities. In addition, we
    effective filing date, if later*     procedures surrounding the retention of   continue to work to improve the development
•   Old-Age and Survivors Insurance      performance measure documentation.        and retention of the kind of documentation
    claims processed                                                               needed for external audits of our performance
                                                                                   measures.




*This is no longer an external GPRA measure.



Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                                             B-7
                                Closed Recommendations Related to the Completeness of    Performance Measures
                       Indicator                          Recommendation                                       Status
       Percent of Disability Insurance (DI)  Either include international DI claims in   RTS March 2003 – Closed – SSA does not
       claims decided within 6 months after the measure or fully disclose in the SSA     believe that international DI claims should be
       onset or within 60 days after the     Annual Performance and Accountability       included in the measure. The disability
       effective filing date, whichever is   Report the number of international DI       timeliness goal is, and has always been, a
       later*                                claims excluded.                            measure of field office disability claims
                                                                                         processing for U.S. States and territories. The
                                                                                         process of filing a disability claim is very
                                                                                         different for persons who file in foreign
                                                                                         countries, and cannot be compared to field
                                                                                         office/Disability Determinations Service
                                                                                         procedures. Social Security offices do not exist
                                                                                         in foreign countries. Applicants must have
                                                                                         access to American embassies to conduct
                                                                                         business, and the embassy staffs are not SSA
                                                                                         employees. While SSA does not agree that
                                                                                         international DI claims should be included in
                                                                                         the measure, it does agree that SSA's Annual
                                                                                         Performance and Accountability Report should
                                                                                         disclose the number of international DI claims
                                                                                         that are excluded.

                                                                                         The performance measure, "Reliability of Data
                                                                                         Used to Measure Timely Processing of
                                                                                         Disability Insurance Claims," as referenced in
                                                                                         this audit has not been an active measure since
                                                                                         1999. SSA did take action to include
                                                                                         international claims in our current measure of
                                                                                         the timeliness of disability claims resolving the
                                                                                         issue raised in this audit.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                                                           B-8
       Percent of major statistical products   SSA should expand the performance            RTS June 2002 – Closed – We disagreed. In
       that are timely*                        measure to include additional types of       the report, OIG acknowledges the Agency made
                                               reports and include publications produced    a significant effort in identifying publications
                                               by divisions other than the Office of        for this measure. We have determined that no
                                               Research, Evaluation, and Statistics.1       other SSA statistical publications are produced
                                                                                            regularly, have a statutory deadline, or are
                                                                                            considered major in terms of usage.

       •   Percent of employers rating         When calculating the percent of              RTS June 2002 – Closed – We disagreed.
           SSA’s overall service as            respondents providing a rating of “good,”    Basing ratings on substantive responses is
           “excellent,” “very good,” or        “very good,” or “excellent,” the             acceptable practice, as long as accompanying
           “good”*                             denominator should include all               discussion indicates that the percentages reflect
       •   Percent of employers rating         respondents, regardless of their ratings.7   the opinions of those who provided a rating, as
           SSA’s overall service as                                                         was done in the report prepared by the Office of
           “excellent”*                                                                     Quality Assurance and Performance
                                                                                            Assessment. It should also be noted that the
                                                                                            rating questions did not include a choice of "no
                                                                                            opinion" as indicated in OIG's report; the choice
                                                                                            was "not applicable/service not used," which
                                                                                            served as a screening device that fit into the
                                                                                            format of the questionnaire.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                                                              B-9
                                               Closed Recommendations Related to Internal Controls
                       Indicator                                     Recommendation                                      Status
       Percent of original and replacement       Revise the Modernized Enumeration         RTS April 1998 – Closed – SSA does not agree
       SSN cards issued within 5 days of         System interview and batch mode process it is necessary to expand its current processes in
       receiving all necessary                   to accurately capture the time of         order to capture partial day processing time.
       documentation*                            certification.                            Staff is examining the need for improvement in
                                                                                           the input of certifications of Social Security
                                                                                           number applications.
       Percent of DI claims decided within       Establish controls in the Modernized      RTS August 2002 – Closed – SSA evaluated
       6 months after onset or within            Claims System, SSA Claims Control         the SSN sources used by OIG and determined
       60 days after the effective filing date, System, Manual Adjustment Credit and       that the systems applications cited do in fact
       whichever is later*                       Award Processing/Manual Adjustment        pass incorrect dates and, when corrections are
                                                 Credit and Award Data Entry and           entered, the updated data is not passed on
                                                 Management Information Initial Claims     MIICR. The Office of Systems (OS)
                                                 Records systems over date fields to limit components have met and been unable to
                                                 data entry errors.                        duplicate the events. OIG's findings were taken
                                                                                           from 3 months of MIICR data consisting of
                                                                                           284,974 cases covering the period November
                                                                                           and December 1999 and February 2000, with
                                                                                           only 9 records reflecting incorrect data.
                                                                                           Therefore, it is believed these occurrences were
                                                                                           either anomalies, or systems changes
                                                                                           subsequent to the review period in the
                                                                                           applications noted corrected any erroneous data
                                                                                           passing to MIICR.
       • Percent of callers who                  Ensure that controls exist to prevent     RTS March 2003 – Closed – OTSO redesigned
           successfully access the               unauthorized access to the 800-number     the front-end to allow a backup to run the jobs.
           800-number within 5 minutes of        performance measure data files.           This required moving all the files. During the
           their first call                                                                move, PC file access was made more secure.
       • Percent of callers who get through                                                On the mainframe-side, actions have been taken
           to the 800-number on their first                                                to change the file names to meet Top Secret and
           attempt                                                                         SSA standards. All dataset names have been
       • 800-number calls handled                                                          changed and are under Top Secret security.



Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                                                            B-10
       •   Percent of public with an         Require that the customer’s SSN and name    RTS October 2001 – Closed – The current
           appointment waiting 10 minutes    be included with the data submissions and   waiting time study is not meant to be customer
           or less*                          records to provide an opportunity to test   specific and generates information needed to
       •   Percent of public without an      data reliability and follow-up on           assess accessibility only at the national level.
           appointment waiting 30 minutes    questionable data.                          Capturing the SSN for such a study would be
           or less*                                                                      too resource intensive and would not be
                                                                                         justified considering that the Agency is
                                                                                         developing the VIP process. When the VIP
                                                                                         process is implemented, it will provide
                                                                                         information allowing an auditor to track and
                                                                                         verify individual customer information and
                                                                                         office level data.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)                                                                          B-11
                                                                       Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Rona Rustigian, Director, (617) 565-1819

   Timothy Nee, Deputy Director, (212) 264-5295

Staff Acknowledgments

In addition to those named above:

    Jeffrey Shapiro, Program Analyst

    Abraham Pierre, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-03-13033.




Summary of OIG’s Reviews of SSA’s Performance Data (A-02-03-13033)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
